         ATLANTA DISTRICT OFFICE
              Limited Audit of Financial and Administrative Controls


                                      INTRODUCTION
We conducted a limited audit of selected financial and administrative controls of the
Atlanta District Office (ADO). The audit procedures were limited to interviewing
ADO staff, reviewing supporting documentation, and conducting limited tests of
transactions. The purpose of the audit was to provide the Commission with negative
assurance that the controls were adequate, implemented economically and
efficiently, and in compliance with Commission policies and procedures.1 Our audit
was performed in accordance with generally accepted government auditing
standards between June and August 2004.



                                       BACKGROUND
The Atlanta District Office assists the Southeast Regional Office in administering
Commission programs. In carrying out its responsibilities, the ADO exercises a
broad range of financial and administrative functions, including maintaining time
and attendance records; procuring supplies and services; arranging for staff travel;
maintaining an inventory of property; and recording budgeted and actual
expenditures of the office.



                                     AUDIT RESULTS
During the limited audit described above, no material weaknesses in the internal
control structure involving ADO’s financial and administrative functions came to our
attention. Also, we discussed some non-material findings and informal
recommendations with ADO staff. We commend the ADO for already implementing
almost all of the recommendations.




1
    Negative assurance means that no material internal control weaknesses came to our attention during our
     limited audit.



AT L AN T A D I S T R I C T O F F I C E ( AU D I T 3 9 0 )               SEPTEMBER 30, 2004
